4a
|

C@OCKLE

5 E-Mail Address:
Le 84a 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 19-251 & 19-255

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL
OF CALIFORNIA,
and
THOMAS MORE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL
OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF GOLDWATER INSTITUTE AND RIO GRANDE FOUNDATION IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7719 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and swom to before me this 24th day of February, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

    
 

GENERAL NOTARY-State of Nebraska

 

Kente. Q. Loco Ondiav-h, hale

Notary Public

 

‘ RENEE J. GOSS
sees My Comm. Exp. Seplember 5, 2023

 

Affiant 40686
